APPENDIX A

Case: 15-50409, 09/18/2019, ID: 11435252, DktEntry: 52-1, Page 1 of 3

(1 of 7)

FILED

NOT FOR PUBLICATION

SEP 18 2019

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JORGE AARON CEJA-VALDEZ,

No.

U.S. COURT OF APPEALS

15-50409

D.C. No.
3:15-cr-00851-LAB-1
MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Southern District of California
Larry A. Burns, District Judge, Presiding
Submitted April 12, 2019**
Pasadena, California
Before: TASHIMA and BYBEE, Circuit Judges, and HARPOOL,*** District
Judge.
Appellant Jorge Ceja-Valdez appeals the district court’s denial of his motion
to dismiss the indictment pursuant to 8 U.S.C. § 1326(d). We have jurisdiction
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
*

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
**

The Honorable M. Douglas Harpool, United States District Judge for
the Western District of Missouri, sitting by designation.
***

(2 of 7)

Case: 15-50409, 09/18/2019, ID: 11435252, DktEntry: 52-1, Page 2 of 3

under 28 U.S.C. §§ 1291 and 1294(1). On de novo review, United States v. ReyesBonilla, 671 F.3d 1036, 1042 (9th Cir. 2012), we affirm.
I
Appellant argues that his underlying 2013 removal order is invalid because
the immigration judge advised him that he was not eligible for voluntary departure
because his prior conviction under California Penal Code (CPC) § 211 was a crime
of violence. This argument is foreclosed by our recent decision in United States v.
Martinez-Hernandez, No. 16-50423, 2019 WL 3332591, at *5 (9th Cir. July 25,
2019), which held that CPC § 211 is an aggravated felony because it qualifies as a
categorical generic theft offense under 8 U.S.C. §1101(a)(43)(G). As a result, we
affirm.
II
Appellant appeals his September 14, 2015 sentence under U.S.S.G. § 2L1.2.
Appellant received a 16-level increase for his prior aggravated felony conviction
due to his robbery conviction being treated as a crime of violence. This Court has
held that a California robbery conviction is “no longer a categorical match to a
combination of Guidelines-described robbery and extortion and Becerril-Lopez’s
holding to the contrary no longer controls.” United States v. Bankston, 901 F.3d
1100, 1104 (9th Cir. 2018). However, this Court also held the amendment’s
alteration of the definition of “crime of violence” is not retroactive. Id. at 1105.

2

15-50409

(3 of 7)

Case: 15-50409, 09/18/2019, ID: 11435252, DktEntry: 52-1, Page 3 of 3

Appellant was sentenced prior to August 2016, when the amendment took effect.
As a result, the amendment does not impact Appellant’s sentence and we affirm.
III
The government has filed a Motion for Judicial Notice seeking judicial
notice of Appellant’s underlying state court conviction records. The motion is
denied.
AFFIRMED.

3

15-50409

APPENDIX B

Case: 15-50409, 01/24/2020, ID: 11572893, DktEntry: 58, Page 1 of 1

FILED
UNITED STATES COURT OF APPEALS

JAN 24 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JORGE AARON CEJA-VALDEZ,
Defendant-Appellant.

No.

U.S. COURT OF APPEALS

15-50409

D.C. No.
3:15-cr-00851-LAB-1
Southern District of California,
San Diego
ORDER

Before: TASHIMA and BYBEE, Circuit Judges, and HARPOOL,* District Judge.
The panel judges have voted to deny appellant’s petition for rehearing. The
panel judges have also recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
Appellant’s petition for rehearing and petition for rehearing en banc, filed
November 3, 2019, is DENIED.

The Honorable M. Douglas Harpool, United States District Judge for
the Western District of Missouri, sitting by designation.
*

